OIG Investigative Reports, Telephone Technician Convicted in $1 Million Fraud Scheme Against the US. Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Thursday, February 28, 2002
For Information Contact Public Affairs
Charming Phillips (202) 514-6933
Telephone Technician Convicted in $1 Million Fraud Scheme Against the US. Department of Education
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr., Inspector General for the Department of Education Lorraine Lewis, and Van Harp, Assistant Director in Charge of the FBI's Washington Field Office, announced that Maurice W. Hayes, 54, of Fort Washington, Maryland, who was a participant in a wide-ranging conspiracy to defraud the Department of Education was found guilty today by a jury in United States District Court of the three charges against him: one count of conspiracy to defraud the United States with respect to false claims and two counts of theft of government property.
Hayes' convictions arose from his participation in a schema through which the Department of Education was defrauded of more than $1,000,000. Each of the counts of conviction carries a maximum of ten years imprisonment and a fine up to $250,000. Sentencing is scheduled for June 21, 2002, before the Honorable Emmet G. Sullivan.
According to the Government's evidence, Maurice Hayes was a technician employed by Bell Atlantic Federal Systems (now Verizon) who was assigned full-time to the Department of Education to install telephone systems. He worked alongside Robert Sweeney, who also was a Bell Atlantic Technician, and William Cousin, who was a technician with Lucent Technologies. Any hours, including overtime and holiday hours, that these technicians claimed to work for the Department of Education were billed to and paid for by the Department of Education. Sometime in the 1990's and continuing up until December 9, 1999, Hayes, Sweeney, and Cousin began to claim that they were working far more overtime hours than they had actually worked. Sweeney and Cousin testified that they met with Hayes in the mornings to discuss how much time they should put on their time sheets for the prior day's work. They decided that because they were supposedly working together that their time sheets should reflect the same amount of time or it would appear suspicious.
In addition to adding hundreds of unworked hours to their time sheets, the evidence showed that the technicians also were involved in conspiring with Elizabeth Mellen, who was a telephone specialist at the Department of Education. First the technicians began to perform personal services for Mellen She sent the technicians during the workday and on weekends to drive her daughter to doctor's appointments, to buy her crab cakes from Baltimore, install phone jacks at family members' homes, to perform yard work at family members' homes, and other personal errands. In exchange for these favors she permitted the technicians to claim that they were working overtime on legitimate Department of Education work at the time they were performing these personal errands, When Robert Sweeney was in Bermuda getting married,  Mellen allowed him to claim he was actually at work for the Department of Education. Hayes submitted Sweeney's false time sheets for him while he was away and also fabricated a false time sheet claiming that Sweeney had put in eight hours of overtime on the Saturday. The government's case also included extensive evidence that Hayes and Sweeney were outside the District of Columbia making cellular telephone calls at times they claimed to have been working at the Department of Education.
The evidence also showed that the technicians assisted Mellon with her plan to obtain large amounts of electronic goods for her family members through the Bell Atlantic contract. Sweeney ordered the goods on the Bell Atlantic contract and helped deliver these to the family members. As a reward for the technicians' assistance with her personal errands and obtaining the goods, Mellen approved their false labor charges. The technicians kept quiet about all of these activities to ensure that they could continue to double their normal wages with their vastly overstated overtime claim.
As a result of this scheme the Department of Education was charged for over $800,000 of false overtime charges and over $300,000 worth of illegitimate goods. Elizabeth Mellen, Robert Sweeney, and William Cousin had previously pled guilty for their roles in the scheme. Fourteen people have pled guilty as a result of their participation in this scheme, including nine of Mellen's family members. Three more family members are pending trial in April.
In announcing the verdict, U.S. Attorney Howard, Inspector General Lewis, and Assistant Director Harp commended members of the Department of Education's Office of Inspector General and the Federal Bureau of Investigation's Government Fraud Squad. In particular, they praised the outstanding investigative efforts of OIG Special Agent Brian Hickey and FBI Special Agent Thomas Chadwick. In addition, they commended Assistant U.S. Attorneys Barbara A. Grewe and Greg Marshall of the Public/Corruption/Government Fraud Section, who prosecuted the case.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov